                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-12A                                   Office of Inspections                                February 2013




                              Inspection of
                          Embassy Santiago, Chile




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a co py directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




                                Table of Contents
Key Judgments                                                                    1
Context                                                                          2
Executive Direction                                                              3
   Embassy Management and Coordination                                           3
   Strategic Direction and Coordination                                          4
   National Security Decision Directive 38                                       5
   Morale and Workplace Issues                                                   6
   Mentoring and Professional Development for First- and Second-Tour Officers    7
Policy and Program Implementation                                                8
   Economic and Political Reporting and Analysis                                 8
   Innovative Practice: Trafficking in Persons Working Group                     9
   Law Enforcement Affairs Coordination                                         12
   Public Affairs                                                               13
   Consular Operations                                                          16
   Security                                                                     20
   Management Section                                                           22
   Human Resources                                                              22
   Financial Management                                                         25
   International Cooperative Administrative Support Services                    26
   General Services                                                             26
   Facility Management                                                          29
   New Technology Use for Property Inspections                                  30
   Innovative Practice: New Technology Use for Property Inspections             30
   Safety, Health, and Environmental Management                                 30
Information Management                                                          30
Quality of Life                                                                 34
   Community Liaison Office                                                     34
   Health Unit                                                                  34
   Schools                                                                      34
   American Recreation Association                                              35
Management Controls                                                             36
   Referral Program and Adjudication Reviews                                    37
List of Recommendations                                                         38
List of Informal Recommendations                                                41
Principal Officials                                                             45
Abbreviations                                                                   46




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Key Judgments
•   The embassy successfully manages the bilateral relationship in Washington and Santiago and
    creatively engages the Chilean Government on regional and global issues.

•   The embassy’s Integrated Country Strategy is solid and focused, but embassy activities are
    not consistently linked to it. The embassy needs to develop plans for use of travel and
    representational funds, as well as for reporting, which are keyed to strategic priorities.

•   The front office needs to improve communication with staff, including the clarity of its
    taskings.

•   The embassy initiated and leads an international working group to combat trafficking in
    persons that effectively engages Chilean institutions and other governments, which is an
    innovative practice.

•   The embassy needs to strengthen its Equal Employment Opportunity (EEO) program.

•   The management and consular sections provide first-class customer service.

•   The embassy innovatively uses technology to conduct residential inspections, schedule
    repairs, reduce costs, and improve efficiency.

•   Embassy staff increases in recent years have begun to strain available office space in the
    chancery and may require reconsideration of the embassy hosting regional offices of other
    agencies.

•   The professional development program for first- and second-tour officers (FAST) needs to be
    more structured.

•   The public affairs section needs to develop a public affairs strategy, rebuild a sense of team
    cohesion, and reorganize staff and functions in light of recent personnel cuts.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.

The inspection took place in Washington, DC, between September 4 and October 1, 2012, and in
Santiago, Chile, between October 3 and 23, 2012. (b)(2)(b)(6)


conducted the inspection.

                                         1
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Context
        Chile is one of South America’s economic and political success stories, with the highest
per capita gross domestic product in South America ($14,394). It was the first South American
country to join the Organization for Economic Cooperation and Development and is a leader in
the Trans-Pacific Partnership. Free market practices and sound macroeconomic policies have
driven strong economic growth, low inflation, declining poverty rates, and a vibrant export
sector. Chile has the strongest sovereign bond rating in South America, and gross domestic
product grew by 5.1 percent in 2010 and 6.5 percent in 2011. The country experienced a
devastating earthquake in 2010 that ranked in the top 10 largest earthquakes ever recorded and
cost the economy between $15 billion and $30 billion. The resultant tsunami devastated coastal
towns and caused a blackout that affected nearly all Chileans.

        In 2011, President Obama visited Chile and lauded its democratic transition after the
dictatorship of the 1970s and 1980s. Bilateral trade has more than doubled since the U.S.-Chile
Free Trade Agreement entered into force in 2004; two-way trade in goods totaled $17.9 billion in
2010, with the United States running a $3.9 billion surplus. The United States is Chile’s second
largest trading partner and its largest foreign investor, accounting for 24 percent of foreign direct
investment from 1974-2010. The embassy facilitates bilateral commercial relations, identifying
markets for trade in goods and services and investment opportunities for U.S. firms. Embassy
priorities include promotion and protection of U.S. agriculture, improved Chilean commitment to
protect intellectual property rights and expanded access for U.S. goods and services. Historically,
Chile has not played a strong role in the region, but it has started to raise its profile. It has
deployed peacekeepers to Haiti and collaborates with the U.S. on trilateral aid projects in
Paraguay and Central America. The United States holds regular, high-level consultations with
Chile on defense and political cooperation. Bilateral law enforcement and security cooperation
also focus Central America. Working-level defense contacts are good, and there are frequent
official visits, including the U.S. Secretary of Defense in April 2012.

         The embassy gets high marks in Washington for managing the bilateral relationship. The
embassy’s strategic goals have two pillars: building stronger partnerships across a spectrum of
national security interests, including trade; and protecting and serving U.S. citizens while
facilitating travel and maintaining U. S. border security. The embassy has a staff of 321
employees, including 119 U.S. direct-hires, 58 U.S. local hires, and 144 locally employed (LE)
staff. The OIG team focused on executive direction; staffing gaps; management and leadership
problems in the public affairs office; the EEO program; space constraints; the challenge of a road
construction project adjacent to the chancery; an increasingly expensive rental housing market;
and mission morale. The embassy’s program budget in FY 2012 was $4,055,290. Chile receives
International Military Education and Training funding ($820,000 in FY 2013).




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED




   Executive Direction
           Embassy Santiago is led by an Ambassador with strong policy and diplomatic skills and a
   deputy chief of mission (DCM) with experience working on management issues from a previous
   DCM assignment in Latin America. The embassy in general and the Ambassador in particular
   creatively manages the bilateral relationship and encourages Chile to become more engaged on
   regional and global issues where it shares values and objectives with the United States. The
   Ambassador enjoys close, constructive relations with a broad range of senior officials, the
   private sector, and civil society. The Department of State (Department) and other foreign and
   defense agencies seek the Ambassador’s advice on regional and global issues, not just bilateral
   matters with Chile. The Department of Energy, for example, chose the Ambassador to lead an
   outreach effort to the U.S. business community on exporting to key regional markets.

           The Ambassador and the embassy aggressively support the programs and activities of all
   agencies. The Ambassador has shown a capacity and willingness to take on difficult issues on
   their behalf—and usually succeeds. Cooperation between Chile and the United States in the
   economic, military science and technology, and political fields has increased the mission’s
   workload, including support for visits to and from the United States.

   Embassy Management and Coordination

           Despite the embassy’s strong substantive performance, it has a variety of internal
   problems that stem largely from front office management, communication, and coordination
   issues. The Ambassador and DCM have different leadership and management styles and
   strengths, and they do not work effectively as a team. The Bureau of Western Hemisphere
   Affairs (WHA) is aware of this situation, as are many members of the embassy’s staff. The
   Ambassador looks to the DCM to be the embassy’s chief operating officer and sounding board
   for him on policy issues. This arrangement has not worked well. The DCM focuses on internal
   operations, and he has spent extra time overseeing the management section because of long
   personnel gaps there. Many section and agency heads view the DCM as not comfortable with or
   engaged on substantive policy issues. He is praised for being a visible presence in the embassy
   by walking around the mission, but he needs to be more alert to operational problems and
   engaged in resolving them.

           Both the Ambassador and DCM were unaware of the extent of leadership, management,
   and morale problems in the public affairs section involving American staff until a reduction in
   force (RIF) of LE staff in July 2012 forced it to their attention and required them to take action.
(b) (5)




                                            3
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        The embassy has a good complement of interagency and intersectional meetings. The
Ambassador chairs a weekly meeting of the full country team and a weekly meeting of core
country team members, which includes all reporting and law enforcement agencies and
Department sections. Notes from the country team meeting are circulated to all American staff.
Daily press briefings, weekly meetings with section heads, and regular meetings with other
agency heads keep the Ambassador abreast of embassy activities. The DCM meets monthly with
section heads, but these meetings have not proven to be an effective management vehicle.

        Taskings from the front office are not clear, often resulting in wasted time, with sections
trying to determine on their own what is requested and who has action. The role of the front
office’s protocol unit in taskings and facilitating visitors to the front office is not clearly
understood within the mission. The front office staff does not meet as a team to review
scheduling, taskings, and other operational issues. Such meetings would improve teamwork and
communications within the front office and enhance front office communication with the rest of
the embassy. New section heads and staff arrived this summer in key embassy sections. They are
aware of shortcomings in communications and paper flow and want to help develop a better
system.

       Informal Recommendation 1: Embassy Santiago should initiate periodic meetings of the
       front office staff, including the protocol unit, to review scheduling, taskings, and other
       operational issues.

       Informal Recommendation 2: Embassy Santiago should establish a working group of
       select section and agency heads and front office staff to develop a new tasking and paper
       flow system for the Ambassador’s approval.

Strategic Direction and Coordination

       The embassy’s Integrated Country Strategy is a first-rate document that provides clear
and appropriate strategic goals and objectives. All agencies and sections participated in
developing the strategy. The Mission Resource Request effectively links mission resources to
goals and objectives outlined in the Integrated Country Strategy.

        Implementation has been less successful. Beyond meetings, there are no processes that tie
operational budgets to strategic priorities. The embassy does not have a formal process to plan
and coordinate reporting among its several reporting sections and agencies. There is an excellent
process, led by the DCM and involving all agencies and sections, for developing plans for the
Ambassador’s travel in Chile, but nothing similar for embassy sections. Section staff is also
unaware of funding allocations for either travel or representation. In addition, mission employees
said that lack of funds prevented needed official travel. The front office was not aware of the
problem.

Recommendation 1: Embassy Santiago should establish a semiannual review process to assess
and report to the Ambassador and the Bureau of Western Hemisphere Affairs progress toward

                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



meeting objectives in the Integrated Country Strategy, including appropriate adjustments in
travel and reporting plans. (Action: Embassy Santiago)

       Informal Recommendation 3: Embassy Santiago should tie the work requirements of all
       Department of State U.S. direct hires to mission objectives.

       Informal Recommendation 4: Embassy Santiago should apportion travel and
       representational funds based on Ambassador-approved section travel and representational
       plans tied to the embassy’s strategic priorities. Section heads should be responsible for
       managing the section’s funding allocation accordingly.

National Security Decision Directive 38

        Since 2006, when the last inspection occurred, the embassy has grown by 20 positions.
The overwhelming majority were Department of Defense positions. With closer bilateral
relations and its pleasant setting in one of Latin America’s most dynamic, safe, and scenic
countries, Chile is an attractive venue for offices with regional responsibilities beyond Chile. The
Ambassador has expressed concerns about the mission ability to support further mission growth
because of support staff and space limitations. Some units of the regional security office have
inadequate office space, and must use common access computer terminals outside their work
space, which diminishes productivity. As a result, the Ambassador has instituted a “soft freeze”
on new National Security Decision Directive 38 approvals. In doing so, he has skillfully worked
with senior agency representatives so that the freeze is accepted in Washington and does not lead
to conflict in Santiago. All stakeholders in the embassy are involved in the National Security
Decision Directive 38 decisionmaking process, with the exception of the RSO. Inspectors have
counseled the embassy to include the RSO in the consideration of National Security Decision
Directive 38 requests.

        There is still some underused space in the chancery that could be suitable for cleared
American staff. A 2012 rightsizing review noted Santiago is the Latin American base for three
U.S. military science and technology research offices with broad regional responsibilities that
include all or most of the Western Hemisphere and in one instance, South Africa, as well. At
least one of the three would have preferred to be located in another country but was refused
permission by the host government. These offices identify and support the development of
technologies that may have national security applications. Most of their work involves countries
other than Chile and could probably be carried out as well from a U.S. location. Department of
Defense direct-hire employees constitute about 35 percent of embassy direct-hire staffing; by
comparison, the worldwide average is about 16 percent. Either budgetary or space constraints
may cause the embassy to consider the option of having these offices relocate to the United
States, which would free up space for anticipated mission growth in other areas. The embassy
will require the assistance of space planners in the Bureau of Overseas Buildings Operations
(OBO) to thoroughly review and identify options for accommodating increased embassy growth,
which the rightsizing review projected to grow by 6.5 U.S. direct-hire positions by 2017.


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Recommendation 2: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Santiago and the Bureau of Western Hemisphere Affairs, should conduct a survey of
all chancery office space and develop a plan for unused and underused space for new purposes
and to accommodate future growth. (Action: OBO, in coordination with Embassy Santiago and
WHA)

       Informal Recommendation 5: Embassy Santiago should consider proposing the
       relocation of the several technical Department of Defense offices to the United States to
       free up needed office space.

Morale and Workplace Issues

        A Washington-mandated RIF in the public affairs section in July 2012 still reverberates
negatively (b) (5)            The morale of U.S. direct-hire staff is fair to good but is affected by
challenges in dealing with Chilean import restrictions for household effects and vehicles,
residential security problems, the high cost of living, and the loss of rest and recuperation travel
privileges. Both the Ambassador and DCM are viewed by many staff as being unaware of morale
issues and as not having a systematic approach for identifying and dealing with them. Some staff
said they have few interactions with the Ambassador and rarely see him in their workplace or
outside the front office. Embassy staff respect the Ambassador’s intellect and diplomatic skills
but find him distant; a situation not rectified by him hosting five town hall meetings in the
previous year. During the staffing gap in the management counselor position, the DCM met with
the community liaison office (CLO) co-coordinators to be briefed on community activities and
morale and to oversee the CLO co-coordinators’ work. The OIG team counseled the DCM to
continue meeting regularly with the CLO co-coordinators, together with the new management
counselor. Regular visits by the Ambassador would be particularly useful for the public affairs
section, which is going through a rebuilding process, and for the consular and management
sections, whose performance is key to post morale.

       Informal Recommendation 6: Embassy Santiago should implement a plan for the
       Ambassador to visit or schedule periodic meetings with section heads and their staff in
       their offices to enhance his understanding of their work and their awareness of his
       priorities and strategic direction.

       Informal Recommendation 7: Embassy Santiago should arrange for the Ambassador to
       meet periodically with the community liaison office co-coordinators.

       Overall LE staff express satisfaction with their jobs and are respected by their American
colleagues. (b) (5)




                                         6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Mentoring and Professional Development for First- and Second-Tour Officers

        Embassy Santiago has 16 FAST officers, 4 of whom are specialists. The largest number
of FAST personnel is in the consular section, which has 5 officers, but there are FAST personnel
in every section with the exception of public affairs. The consular section has an excellent
professional training program for its officers that focuses on consular work and responsibilities.
There is no structured, front office-led professional development and mentoring program for
FAST personnel. Professional development activities for FAST personnel generally are
coordinated by a FAST officer. The DCM and section heads occasionally take FAST officers to
official meetings to gain experience in note taking. The DCM has hosted representational events
for FAST officers and their Chilean and third-country diplomatic contacts. The DCM and consul
general also spoke to a group of FAST generalist officers about career and rating issues and plan
to hold another meeting in the coming months. The initiative for these meetings comes from the
FAST coordinator and her FAST colleagues.

        The Secretary, the Director General, and other senior Department officials have made it
clear that they look to ambassadors and DCMs to play an active role in contributing to the
professional development of FAST personnel. Guidance in 3 Foreign Affairs Manual (FAM)
2244.2-1 provides that the DCM will in most cases be the reviewing officer for entry-level
officers. The DCM, however, reviews the ratings of only three FAST officers. In large
organizations where the pressure of work makes difficult the conduct of this important
responsibility, 3 FAM 2242.4 a. allows the DCM to delegate this responsibility, but Embassy
Santiago is not large enough to warrant this step. There are a number of excellent examples of
front office engagement in large and small embassies, which the OIG team provided to the
embassy and from which the embassy could draw. The activities of the FAST group have
focused exclusively on generalist officers and not on specialists, although the mission took steps
during the inspection to resolve this discrepancy. During the inspection the Ambassador gave a
well-received talk at his residence on multilateral diplomacy to which FAST officers, were
invited

Recommendation 3: Embassy Santiago should develop a structured professional development
and mentoring program for first- and second-tour officers. (Action: Embassy Santiago)

Recommendation 4: Embassy Santiago should designate the deputy chief of mission as the
assigned reviewing officer for first- and second-tour generalists. (Action: Embassy Santiago)

       Informal Recommendation 8: Embassy Santiago should plan for the Ambassador to
       meet occasionally with first- and second-tour officers as a group.

       Informal Recommendation 9: Embassy Santiago should give equitable attention in the
       first- and second-tour program to the professional development and mentoring needs of
       first- and second-tour specialist officers.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Policy and Program Implementation
Economic and Political Reporting and Analysis

        Embassy Santiago has a combined economic and political section led by a section chief
in an FS-01 position. Two FS-02 officers supervise the section’s economic and political units,
respectively. Within the 12-person section, job satisfaction is high and interpersonal relationships
are collegial. Work requirement statements are clear and current. The three LE staff members are
well trained and supportive.

        At the time of the inspection, over half of the officers, including the section chief, were
recent arrivals. The turnover in both the economic/political and the public affairs sections
provided a chance to change the sections’ working relationship that had been fraught with
discord. Both sections seized the opportunity and cooperation has improved. Non-Department
agencies at post are unanimously satisfied with the level of cooperation with the
economic/political section. Willingness to share information is crucial in a mission in which
taskings and direction from the front office are not always clear.

       The economic/political section maintains excellent contact with the country desk in
Washington, which participates by telephone in weekly staff meetings. These conference calls
highlight interaction with other agencies at post and in Washington. The practice is mutually
beneficial.

        Washington consumers are satisfied with the embassy reporting. The OIG team found the
quality and timelines of reporting was good and follows the strategic objectives of the Integrated
Country Strategy. The new economic/political counselor has started to approve routine reporting
that had previously gone to the front office, which is appropriate. Required annual reporting,
responses to Department questionnaires and démarches, memoranda of conversation, and
scenesetter cables for visiting delegations demonstrate that the section has a deep knowledge
base about Chile and a variety of contacts among its leaders. Cables are well sourced. The LE
staff provide information and language for cables and reports. The U.S. local hire assistants
sometimes draft cables.

        The only significant reporting shortcoming is analytical reporting, which is sparse. Asked
about the quantity of analytical cables, most economic/political section officers agreed that
analysis is thin. They explained that it is difficult to find time to write analytical pieces because
of the large number of visitors, démarches, and other time-consuming tasks. In the past year, the
section handled 403 country clearance requests and supported more than 100 official visitors in
such ways as scheduling, note taking, and accompanying visitors on travel. A deputy secretary,
an under secretary, and a deputy assistant secretary from the Department all visited Chile in
2012. Démarches are frequent. In September 2012 alone the section conveyed 15 démarches to
the Government of Chile.



                                         8
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



       The section has excelled in building ties with Chilean institutions, nongovernmental
organizations, and other diplomatic missions that combat trafficking in persons.

Innovative Practice: Trafficking in Persons Working Group

Innovative Practice: Trafficking in Persons Working Group

The economic/political section organized a trafficking in persons working group comprised of 20
entities representing the Chilean Government, the United Nations, nongovernmental
organizations, and foreign embassies. The group creates partnerships between relevant
departments of the Chilean Government, nongovernmental organizations, and other embassies.
Together they plan strategies, share information, and coordinate funding to help implement
Chile’s new antitrafficking legislation.

Issue: To enhance Chile’s efforts to combat trafficking in persons.

Response: The working group meets regularly to discuss ways to support Chile’s antitrafficking
efforts. A seven-organization steering committee was created to institutionalize the group and tie
it to organizations rather than individuals, with a view toward creating long-term sustainability.
Upon hearing of the group, the Minister of Women’s Affairs asked to attend a meeting. Other
relevant sections of the government, including those tasked with border control, migration, and
child protection, are now involved. During the inspection another European Union member
country joined the group.

Result: The working group enhances antitrafficking awareness among journalists and the general
public. The Ministries for Women’s Affairs and the Interior are using the group’s ideas to craft a
strategic plan on trafficking. Information exchanges maximize the knowledge base for the
Department Trafficking in Persons report and for other countries and organizations that share our
concerns about human trafficking.

        The economic/political unit prepares a semiannual reporting plan. The plan from January
to June 2012 included 19 cables, of which 12 were completed. The plan is an excellent way to
anticipate upcoming events and required reporting. The political unit does not have a reporting
plan.

        One of the few irritants in the U.S.-Chile relationship involves intellectual property
rights. The economic/political section prepares a twice yearly report on Chile’s progress and an
action plan to encourage fulfillment of Free Trade Agreement commitments, including
intellectual property rights. The Ambassador, economic officers, and Department of Commerce
officers have raised intellectual property issues with a range of Chilean leaders and entities,
including the President, the Ministry of Education, the Ministry of Trade, the Supreme Court,
and legislators.

       The senior economic officer helps build the economic policy expertise of his staff by
giving a short tutorial on economic principles in each weekly meeting. Sample topics have
                                                 9
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



included how central banks affect money supply, how elasticity of demand affects prices, and
how to calculate net present value.

        Most embassy travel is built around the needs of the front office and visitors. The
economic/political unit stopped travelling because it was told midyear that there was no more
travel money, only to scramble in September to take two trips when funds were made available.
The Bureau of International Narcotics and Law Enforcement Affairs (INL) reported that the lack
of travel within country impedes the embassy from covering INL issues as much as desired. (See
the Executive Direction section of this report regarding embassy travel planning.)

       The economic/political section efficiently used limited representation funds made
available to it in 2012. Representational events were balanced among section officers and
covered all five objectives under the Integrated Country Strategy’s number one goal of
partnership with Chile. LE staff does not use representational funds; they use their own money to
take contacts to lunch or dinner.

        All positions in the economic/political section are designated Spanish 3/3. Officers
routinely use their language skills, including in presentations to Chilean officials, university
groups, and civic organizations. Everyone has met the language requirement except the section’s
office management specialist who received a waiver based on Department needs. She is
receiving Spanish language training at post, which the Department directly funds.

       The section has a designated Leahy vetting point of contact and uses the International
Vetting and Security Tracking system to vet recipients of U.S. training.

Business, Commercial, and Agricultural Affairs

        Business and commercial objectives are a prominent part of the embassy’s Integrated
Country Strategy. The economic/ unit of the economic/political section collaborates closely with
the Foreign Commercial Service office in the embassy, especially on pharmaceuticals and
intellectual property rights. The two sections meet monthly, and there is daily interaction through
email and conversations. The commercial service chief clears relevant unit reporting and
participates in the embassy’s intellectual property rights committee. The economic unit actively
engages in intellectual property rights outreach. Within the last 6 months, officers made
presentations to university students and alumni as well as diplomats from European, Mexican,
and Canadian Embassies.

      The unit actively and effectively promotes strategic objectives in trade, investment, and
economic integration. Specifically, the economic section focuses on promoting the U.S.-Chile
Energy Business Council, on pressing Chile to meet its obligations under the Free Trade
Agreement, and on supporting the Trans-Pacific Partnership.

        Agriculture is the second largest sector of the Chilean economy after mining and provides
one in four jobs in Chile. The Foreign Agricultural Service and economic/political sections work

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



collegially to advance U.S. interests, and share information on labor, export, and Chile’s
agricultural politics.

Energy, Environment, Science, Technology, and Health

        Increasing U.S.–Chile cooperation in energy, environment, science, and technology is a
key mission objective. The Bureau of Oceans and International Environmental and Scientific
Affairs has praised the embassy’s energy, environment, science, technology, and health
(EESTH) work as a model because of its “monumental” impact, including increasing media
coverage of issues and the embassy’s role promoting them.

        An interagency science committee meets quarterly or as needed. Chaired by the EESTH
officer, members are drawn from public affairs, the Foreign Agricultural Service, the Animal and
Plant Health Inspection Service, the Food and Drug Administration, and representatives from the
U.S. Army, Air Force, and Navy research organizations. The officer has particularly close
working relations with the commercial section on renewable energies, lithium extraction, and the
U.S.-Chile Energy Business Council.

        In addition to the current FO-3 officer and back-up FAST officer, the 2012 Mission
Resource Request requested an LE staff position to support growing collaboration with Chile on
energy and the environment. U.S.-Chile engagement on science and environment has increased
because of additional U.S. focus on climate change, the Energy and Climate Partnership of the
Americas, Trans-Pacific Partnership, the U.S.-Chile Free Trade Agreement, and a bilateral
memorandum of understanding to enhance civil and nuclear energy cooperation. An additional
position would focus on outreach to government entities, nongovernmental organizations, and
universities. The 2012 rightsizing report acknowledges that Chile is below the average of six
comparator missions and supports the request for an additional assistant in the EESTH unit. The
OIG team concurs.

Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordination with Embassy
Santiago, should establish a new locally employed staff energy, environment, science,
technology, and health assistant position in the economic/political section. (Action: WHA, in
coordination with Embassy Santiago)

        To its credit, the section has creatively used funding from the Agency for International
Development and the Bureau of Oceans and International Environmental and Scientific Affairs
to accomplish some of its tasks. The EESTH officer is the grants office representative for two
small grants totaling $15,000 in the north of Chile. The section has not visited either project to
monitor performance due to lack of travel funds. The OIG team counseled the unit to request the
Bureau of Oceans and International Environmental and Scientific Affairs to include funds in
future grants to allow for monitoring trips.




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Law Enforcement Affairs Coordination

        The law enforcement committee is chaired by the DCM and, prior to the inspection, was
coordinated by an economic officer, who led discussions. The committee includes
representatives from the regional security office, the economic/political section, the public affairs
section, the consular section, the legal attaché, the Drug Enforcement Administration country
attaché, and representatives of the Defense attaché office and the force protection detachment.
Meetings are held monthly, but no record is kept of them. On at least one occasion, a key
participant was inadvertently omitted from the invitation list. OIG heard different views from
law enforcement officers about what the composition of the committee should be and how to
make meetings more effective for coordinating law enforcement activities. OIG advised the chair
to play a more active role and suggested the coordinator solicit views from committee members
on how to improve the meetings.

        During the inspection the embassy changed the coordinator of the law enforcement
committee from an economic officer to the RSO to better focus on law enforcement. At the same
time, the economic officer is assuming responsibility from the regional security office for
coordinating training at the U.S.-based International Law Enforcement Academy, funded by
INL.

         INL funding is limited because of Chile’s advanced state of development and well-run
police forces. There is $165,000 in the funding pipeline, which includes funds for collaborative
activities in third countries that may be used for regional training on DNA comparisons and
container tracking software, traditional INL funds for police training and equipment, and Andean
Initiative funds from the Drug Enforcement Administration administered by INL. According to
INL, the inability to travel impairs the section’s ability to do end-use monitoring, but WHA has
not funded any travel by section officers.

Counterterrorism and Countering Violent Extremism

        Anarchists and small indigenous groups account for most of Chile’s extremist incidents.
U.S. and Chilean authorities do not consider most of these incidents to be acts of terrorism
because they are not positioned to kill, maim, or terrorize. Chilean institutions cooperate in
reporting suspicious transactions that could be linked to terrorist financing, and the government
participates in international initiatives, such as the Global Initiative to Combat Nuclear
Terrorism. All elements of the mission agree there is no need for a separate working group on
counterterrorism and combating violent extremism.

Defense and Security

       Coordination between the Defense attaché’s office and the economic/political section is
excellent. They share information and coordinate draft reporting.




                                        12
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Public Affairs

Management (b) (5)

       The public affairs section of 5 officers and 21 LE staff is starting to improve cohesion
and performance after earlier experiencing poor leadership, which had banned staff from
communicating with the front office, other sections, and even with colleagues in other units of
the public affairs section. (b) (5)

                              The OIG team counseled the new public affairs officer to move
quickly to set strategic goals and rebuild his team.

       The 2006 inspection report identified the need to maintain a section calendar, but that has
not been done. The OIG team urged the section to create a section calendar to keep all section
employees informed of the full range of public diplomacy activities. The OIG team counseled
the new chief to set clear office procedures and policies for the awarding of grants on a
competitive basis and to solicit the views of embassy colleagues and the section staff on
improving performance in meeting public diplomacy objectives.

        Of the section’s 84 grants in FY 2012, totaling $1,326,234, none were awarded through
competitive bidding. Grants were decided in consultation with contacts and partner
organizations, which often took the initiative in submitting proposals. Many grants were issued
on a cost-sharing basis. The OIG team counseled the section to base its grants approval process
on its public diplomacy priorities.

Recommendation 6: Embassy Santiago should prepare a public diplomacy strategic plan that is
tied to the Integrated Country Strategy and addresses target audience, budget, time frame, and
staff resources for each program. (Action: Embassy Santiago)

       Informal Recommendation 10: Embassy Santiago should develop an action plan to
       rebuild the public affairs team that empowers the locally employed staff, encourages
       initiative, and strengthens communications.

       Work duties were not reassigned after the July 2012 RIF and LE staff expertise has not
been well used, which has impaired section effectiveness and created inefficiencies in its work.
As workloads are redistributed section staff will need training in their new areas of
responsibility.

Recommendation 7: Embassy Santiago should revise the outdated position descriptions of
locally employed staff members, and clarify lines of authority and work roles, particularly of
those with greater budgetary and programmatic responsibility following the reduction in force.
(Action: Embassy Santiago)

       Informal Recommendation 11: Embassy Santiago should provide training as needed for
       locally employed staff with new responsibilities, especially for the grants officer
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



       representatives, the public affairs section budget manager, and for the staff member in
       charge of the International Visitor Leadership Program.

       Informal Recommendation 12: Embassy Santiago should assign back-up responsibilities
       for each locally employed staff member to cover work in his or her absence.

Information Unit

        Press and information programs include an experienced and capable media monitoring
team tracking national broadcast, Internet, and print news reporting. LE staff and section officers
brief the front office and economic/political section chief daily and provide interested officers
selected articles as well as summaries in English or Spanish.

       The embassy has issued no guidance on how to handle media inquiries or interview
requests. This exposes the embassy to accidental, uncoordinated, or even counterproductive
messaging.

       Informal Recommendation 13: Embassy Santiago should annually issue media
       guidelines to all employees and provide a detailed briefing to section and agency heads.

        The information unit produces 2 weekly 30 minute Spanish-language radio shows on
U.S. topics, which are carried by 106 local radio stations and posted on the embassy Web site.
The show’s production includes cooperation with Voice of America and use of its material,
research, compilation, translation, interviews by two information specialists, and labor-intensive
support such as labeling and mailing 99 audio discs, consuming an average of 30 percent of three
LE staff members’ work weeks. The section has not done a cost-benefit analysis of these radio
programs. There is no data on the listener audience or a strategic target audience goal. To
effectively target the program, the unit could usefully draw from relevant public opinion polling
on where Chileans get their news and how they form attitudes toward the United States. Such
polling could also support social media and Web site outreach.

Recommendation 8: Embassy Santiago, in coordination with the Bureau of Western
Hemisphere Affairs, should contract locally with a polling firm to determine where Chileans get
their news and to track attitudes toward the United States based on demographic data such as
age, income, and education, and incorporate this data into the embassy’s public affairs strategy.
(Action: Embassy Santiago, in coordination with WHA)

Social Media and Embassy Web site

        Embassy use of its social media and Web site comply with Department regulations and
guidance. The assistant information officer manages the embassy’s active social media
programs. She has received recent training and has started strategic meetings with the section’s
social media team, including the assistant cultural affairs officer. The section is active on
Facebook and Twitter and uplinks products as appropriate on Flickr and YouTube. The social
media team has the expertise and vision to use these tools to reach the targeted audience.
                                       14
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




        The embassy Web site experienced a sharp increase in hits in 2011 but was off that pace
in 2012. Web site content comes from the consular section, press releases, the Bureau of
International Information Programs, and content management offices at the Department. Much
of the Web site information reports on past embassy events. The OIG team urged section staff to
make the Web site more meaningful to the broad Chilean audience.

       Informal Recommendation 14: Embassy Santiago should include a permanent hot link
       featuring upcoming embassy-sponsored public events on its Web site.

       Informal Recommendation 15: Embassy Santiago should minimize postings on past
       internal embassy events and feature external programs of interest to the Chilean target
       audience.

Information Resource Center

        The embassy does not make effective use of the Information Resource Center because of
a lack of awareness of the center’s capabilities. Within the public affairs section, there is
confusion or lack of knowledge of the center director’s roles and responsibilities. Typically,
center directors answer embassy and public inquiries, but in Santiago other members of the
public affairs section do this themselves. In Santiago, a cultural assistant manages the four
American Corners and one science center. The center director, however, provides books and
materials to libraries in the American Corners and binational centers. The center supports both
the information and cultural affairs units, but the information officer supervises the center’s
director. This poor fit contributes to the center’s low profile and lack of mission awareness about
the center’s capabilities.

       Informal Recommendation 16: Embassy Santiago should shift the Information Resource
       Center director to the direct supervision of the public affairs officer.

       Informal Recommendation 17: Embassy Santiago should publicize the capabilities of
       the Information Resource Center and encourage embassy offices and agencies to use it to
       support their work.

       The OIG team counseled the embassy to review the Information Resource Center
functions and assess whether it should continue to operate.

Cultural Affairs Unit

         The unit’s four cultural LE staff assistants undertake most projects, such as two current
American speaker programs in early education, in consultation with longtime contacts, but
without reference to section priorities. They enjoy good relations with their contacts, but their
activities need to be oriented to a strategic plan.


                                        15
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Fulbright Exchanges

        The Fulbright Commission has a particularly active academic exchange program because
of $9.5 million in direct and indirect Chilean Government contributions, one of the largest such
programs in the world. The commission is led by a dynamic executive director, and the program
is strong and well-run.

Binational Centers

        The embassy’s 11 binational centers are nonprofit entities that charge for some English
language courses and provide libraries partly funded by public affairs section grants. The OIG
team visited two centers and two cost-free classes for disadvantaged pupils. Although grants to
the centers all include cost-sharing, the OIG team urged the public affairs officer to make the
grants part of overall embassy strategy, not driven by local requests, precedents, or loyalties.

Alumni Affairs

         The cultural unit has located a professional exchange alumnus eager to coordinate alumni
activities and the unit recognizes the need to assign a staff member responsible for alumni
affairs. The section plans to revise its current alumni outreach strategy, which is merely a list of
activities, and convert it to a plan with goals, a budget, a target audience, a time frame, and
programs. This strategy would be coordinated with the Department’s Office of Alumni Affairs
and would determine the nature of a grant to the new alumni to be established. Chilean alumni of
U.S. exchange programs administered by the Department or other agencies are an important
resource for advancing common Chilean and U.S. interests. The OIG team counseled the public
affairs section to take the lead in helping other agencies, who also have exchange programs,
build on this initiative to develop an embassywide alumni database.

English Teaching Unit

       The English teaching officer spends 30 percent of his time fulfilling regional
responsibilities outside Chile. An estimated 3 percent of adult Chileans speak English. There is
ample room for the English teaching officer to practice people-to-people diplomacy while
helping them learn a coveted skill. Affluent Chileans acquire language training on the private
market, so the officer focuses on programs for disadvantaged high school pupils. The OIG team
counseled him to create a strategic plan, to include goals, dates, places, resources, regional travel,
and a calendar.

Consular Operations

        Santiago’s mid-sized consular operation is well-run, productive, and proactive, with good
morale. Consular leadership has taken advantage of 2 years of stable visa workload and capable
LE staff to develop or reinforce a number of useful programs. The section has its own entry-level
officer professional development plan; the entire section participated in an exercise to test new
Bureau of Consular Affairs crisis management software and rehearse earthquake response
                                        16
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



scenarios. The section continues to develop productive partnerships with Chilean Government
and embassy counterparts through seminars and joint exercises; section personnel make a
number of outreach trips each year to establish new contacts and provide services in remote
regions with significant American citizen resident or tourist populations;. LE staff members
participate in exchanges with other consular sections in the region whenever possible; and
officers regularly produce high caliber reporting. The American citizens services unit organized
a large get-out-the-vote event during the inspection.

       The section’s mix of talent and experience has enabled it to reduce average nonimmigrant
visa wait times from 35 or more days in 2010 and 2011 to 2 to 3 days in 2012 and to devote more
resources to American citizens services. The section makes good use of four eligible family
members, who support both the visa and American citizens services units. Section management
pays appropriate attention to the Visas Viper and visa referral programs and adheres to all
accountability guidelines. As with many other busy consular sections, intra-office
communication and transparent decisionmaking can be challenges, but leadership is committed
to improving the consultative process.

Visas

        The nonimmigrant visa unit’s greatest challenge is managing the Global Support Strategy
(GSS) contract, a worldwide contract that provides information, appointments, fee collection,
document delivery, and greeters for visa services. Many consular sections worldwide
experienced initial problems in converting their existing country-specific processes to the GSS
contract, but Embassy Santiago still has difficulty with passport delivery a year after the
contract’s implementation. For some months, the section has been fielding complaints and trying
to track down individual passports “lost” in the delivery system. At one point, the subcontractor
closed a handful of courier outlets where visa applicants had elected to pick up their passports
without notifying the contractor, the consular section, or the applicants. The contractor returned
50 allegedly nondeliverable passports to the consular section during the inspection, some with
visas issued more than 6 months earlier. Consular staff members contacted all of the passport
holders and determined, in most cases, where the delivery process had broken down. Until
recently, however, the consular section had unwisely insisted that the contractor resolve the
delivery problem without the section’s intervention.

        Although the contract provider is responsible for resolving subcontractor problems, the
Bureau of Consular Affairs Web site clearly states that consular managers also have an
obligation to monitor service levels and provide feedback to the GSS contractor. In some cases,
the consular section’s evaluation of the source of service problems, relevant documentation
about specific cases, and proposed solutions may be critical elements of that feedback. Consular
management designated a LE staff member as the primary liaison with the local GSS contract
representative, but senior consular management has not focused sufficiently on resolving
passport delivery problems, in part because the LE staff liaison has not always made
management aware of the severity of the problem or sought their assistance.


                                       17
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 9: Embassy Santiago should implement a procedure for consular
management to monitor Global Support Strategy service levels in accordance with Bureau of
Consular Affairs guidance and play an active role in coordinating with the local contractor.
(Action: Embassy Santiago)

       Informal Recommendation 18: Embassy Santiago should prepare a front channel report
       for the Bureau of Consular Affairs on the status of Global Support Strategy
       implementation in Chile after 1 year.

        The William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008
requires that consular officers post the act’s guidelines on the embassy Web site and ensure that
visa applicants read or are briefed on the contents of the Wilberforce pamphlet on the legal rights
of employment or education-based nonimmigrant visa bearers. Embassy Santiago distributes
pamphlets to appropriate visa applicants at the time of interview, provides pamphlets in advance
to the agencies that recruit and document summer work and travel applicants, and discusses the
implications of the Wilberforce Act with visa applicants whenever the consular officer has
reason to believe that applicants may not understand their rights. The section is in the process of
updating its portion of the Web site to display Wilberforce information prominently. Not all
officers, however, include the fact they have provided the Wilberforce information to applicants
in the Consular Consolidated Database, as required by 09 State 67921.

       Informal Recommendation 19: Embassy Santiago should reemphasize the requirements
       of the William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008
       with all visa adjudicators and review a sample of cases for compliance.

        The Chilean Government has expressed its commitment to take the necessary steps to
qualify for the Visa Waiver Program and the visa refusal rate for Chile is close to the threshold
required for participation. Although the consular section has had a dedicated fraud prevention
assistant for years, it widely accepts that there is minimal fraud in the nonimmigrant visa
application process. A small percentage of the suspect documents referred for fraud
investigations are actually determined to be fraudulent, and most visas are issued without
recourse to the fraud prevention unit.

        The fraud prevention unit has conducted useful validation studies of several groups of
travelers in the past 2 years: Cuban nationals resident in Chile; summer work and travel
applicants; visa referral program travelers; and airline and ship crew members. The fraud
prevention assistant, a 30 year consular veteran, cannot remember ever conducting a validation
study of B visa applicants—the group of travelers for tourism and business purposes that will be
affected by an eventual visa waiver. Adjudicating officers are operating on the assumption that
the majority of B visa applicants return to Chile within prescribed time limits and are not
working while in the United States. There is no practical way to confirm this without a validation
study.

       Informal Recommendation 20: Embassy Santiago should conduct a broad validation
       study of its B visa applicants in accordance with Bureau of Consular Affairs guidelines
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



       and prepare an analysis of the results as part of its new officer training, fraud prevention
       effort, and visa waiver evaluation process.

        Santiago’s small immigrant visa unit provides a high level of service via email and
through walk-in inquiries to prospective immigrants. Although the embassy processes fewer than
500 immigrant and fiancé visas per year, the immigrant visa unit receives in-person inquiries 3
days each week and answers an average of 300 emails weekly on immigrant visa issues. Many
inquiries involve general questions about the immigration process, which is well-explained on
both the embassy and other U.S. Government Web sites. Although the immigrant visa unit has
the capacity to provide this level of service, making an interview window available 3 mornings a
week for nonessential immigrant visa services can impede nonimmigrant visa and American
citizens services work flow. Both LE immigrant visa assistants have been cross-trained on
American citizen or nonimmigrant visa functions, but they do not often have the chance to
maintain their skills in those areas. Reducing the amount of time the immigrant visa assistants
spend answering inquiries will position them for future workload growth and for work in other
units with higher demand.

       Informal Recommendation 21: Embassy Santiago should reduce the amount of time that
       immigrant visa unit staff members spend providing information and assistance that is not
       related to actual visas in process.

American Citizens Services

        A rotating entry-level officer manages routine American citizens services work under the
oversight of the consular section chief. The unit’s four LE staff members have a strong mix of
skills and experience, are cross-trained, and have a broad range of contacts. In addition to
providing the customary passport and citizenship, notarial, arrest, and deaths services, Santiago’s
American citizens services unit is the focal point for embassy efforts to move the Chilean
Government toward the ratification of a modern extradition treaty. To provide continuity on this
complicated issue, the visa chief—the section’s only mid-level officer other than the section
chief—handles the extradition portfolio, regularly coordinating with the Ambassador, DCM, the
legal attaché, the economic/political section, and various Department offices. He also handles
persistent issues related to three high-profile murder and missing person cases dating back to the
Pinochet era, again due to the lack of mid-level expertise in the American citizens services unit.

         In its recent consular package submissions, section management has requested either a
new FS-03 officer position as a full-time American citizens services unit chief or authorization to
convert one of the five entry-level positions, which currently rotate every 8 months among the
four unit chief positions, to an FS-03 position to handle American citizens services issues.
Santiago’s request for a new position is not currently among the Bureau of Consular Affairs’
priorities. Consular management is weighing whether to retain the status quo until a new FS-03
position becomes available or to request conversion of an entry-level position to a mid-level
position to increase continuity in the American citizens services unit. The latter option would,
however, sacrifice the current flexibility to handle any visa workload surges. The OIG team

                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



supports the effort to increase continuity and expertise in the American citizens services unit, and
urged the embassy to advise the Bureau of Consular Affairs promptly of its preferred option.

Federal Benefits

        The number of American citizens resident in Chile has grown significantly as evidenced
by Chilean Government statistics and by the trebling of entries in the embassy’s registration
database in the last 2 years. Many of these residents are retirees and the attendant increase in
requests for federal benefits assistance has put pressure on the small American citizens services
staff, which spent 50 percent of all its staff time on federal benefits issues in FY 2011.

        In FY 2012, American citizens services staff expended considerable effort to reduce a
federal benefits paperwork backlog that had developed as a result of a long staffing gap and staff
turnover. The unit recently replaced walk-in customer services with an appointment system,
which brought order to the federal benefits workload. Embassy Santiago currently handles about
65 inquiries, claims requests, or other services per week, most of which require communication
with the Buenos Aires regional Social Security Administration office.

         Although the staff reduced their role in reviewing claims applications following a training
visit from the Buenos Aires Social Security Administration liaison, the unit still may be
exceeding standards for how much information they request from customers and how much
detail they include in communications with Buenos Aires. The unit will continue to clarify
federal benefits information on the Web site, limit the amount of information they solicit from
potential beneficiaries, and identify certain types of inquiries that should be referred to Buenos
Aires earlier in the claims process.

Security

       With some exceptions, security programs are generally in good working order. (b) (5)

                            The embassy only recently began giving these programs adequate
attention. An August 2012 Department rightsizing review highlights the need for an additional
assistant RSO position in Santiago and the OIG team concurs.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




Resource Management

                                        Direct-   Local-
                                         Hire      Hire    Local   Total   Total Funding
               Agency
                                         Staff     Staff   Staff   Staff     FY 2012
Department of State
Diplomatic and consular programs             31        8     12      51        $4,055,290
ICASS                                         6       34     63     103        $7,639,700
Public Diplomacy (includes regional           5        5     11      21        $2,530,014
English language officer)
Diplomatic Security                           3               1       4          $509,750
Machine readable visa                                  7      6      13          $489,161
Marine security                               9               4      13          $250,912
Representation*                                                       0           $36,775
OBO*                                                                  0        $7,985,621
Department of Agriculture
Foreign Agricultural Service                  1               4       5          $381,370
Animal and Plant Health Inspection            1              20      21    ** Nonserviced
Service
Department of Commerce
Foreign Commercial Service                    2               9      11        $1,310,551
Department of Defense
Defense Attaché Office (DAO)                  8               3      11      $783,500
Office of Defense Cooperation **             41        1      8      50 **Nonserviced
including: Force Protection
Detachment (staff = 2/0/0), ITC-AME
(2/0/2), NGA (2/0/1), Southern Office
of Aerospace Research and
Development (2/0/1), and U.S.
Military Group w/TAT (33/1/4)
Office of Naval Research                      2        1      1        4        $373,000
Department of Justice
Drug Enforcement Administration               6        2               8   **Nonserviced

Legal Attaché Office                          3                        3   ** Nonserviced
Other Foreign Assistance
Food & Drug Administration                    1               2       3          $371,500
INL*                                                                  0           $60,000
Totals                                     119        58    144     321      $ 26,777,144



                                     21
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Management Section

        Despite a 10 month management officer staffing gap, the management team overall
provides first-class management services. In 2012, embassy staff scored International
Cooperative Administrative Support Services (ICASS) above 4.0 (on a 1-5 scale) in all areas but
one. These results were higher than the 2011 scores, higher than other embassies in WHA, and
higher than worldwide averages. Santiago also has high collaborative management initiative
customer service scores, ranking in the top five for the region. These scores demonstrate a high
degree of customer satisfaction with management support.

        A new management counselor arrived during the inspection. The section includes a
financial management officer, a human resources officer, a general services officer, an
information management officer, a community liaison coordinator, a facility management
officer, and 97 ICASS LE staff. Staffing is adequate and section morale is generally good. Most
LE staff express a high degree of job satisfaction.

       Since the 2006 inspection, the embassy grew by 20 U.S. direct-hire positions (4
Department and 16 other agencies, most of which were positions with the Department of
Defense). The overall number of embassy LE staff positions increased by only one. As noted in
the Executive Direction section of this report, limited office space constrains further mission
growth.

Human Resources

        The human resources unit is adequately staffed and trained and provides good service to
371 embassy employees. The unit’s ICASS scores were above both the worldwide average and
the average for other embassies in the region. In OIG questionnaires and interviews, mission
staff complained primarily about the handling of a RIF of five public diplomacy LE staff
members, family member employment opportunities, a salary freeze, LE staff insurance and
benefits, and recruiting, hiring, and promotion decisions for LE staff, but these are mostly
Department decisions. The OIG team met with U.S. citizen local hires, who voiced concerns
about benefit and tax issues and the inability to use the Diplomatic Post Office to file tax returns.

          With one exception, employee performance evaluations were completed within
established deadlines. Work requirement statements were delayed for most management section
positions during a 10 month gap in the management counselor position. The unit last updated the
LE staff handbook in March 2012. Updates to the LE staff compensation plan have been delayed
because of the U.S. Government worldwide salary freeze. Mission recruiting, hiring, and
promotions complied with mission policy.

       External employment for family members continues to be an issue, although there is a de
facto work arrangement that allow some embassy dependents to work on the local economy.
Three eligible family members work on the local economy and the embassy employs 19 eligible
family members. The requirement that an eligible family member have 2/2 level Spanish for

                                        22
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



higher level jobs is a barrier for prospective applicants. The mission does have a post language
program available to assist eligible family members in learning Spanish.

Locally Employed Staff Committee

       Mission management has an open dialogue with the LE staff committee. The DCM meets
monthly with the committee. The new management counselor met with the committee her
second day on the job and plans to meet with them regularly.

       During a meeting with the OIG team, the LE staff committee chairman raised LE staff’s
concern with the continuing salary freeze, internal communications, and the roles and
responsibilities of the LE staff committee. The OIG team informally suggested the committee
work with the management section to develop a shared understanding of these issues.

        The OIG team discussed separately the LE staff committee’s concerns about how the
embassy handled the July 2012 RIF of five local employees. The LE staff handbook states that in
the event of a RIF an employee will be given 30 days notice. The handbook makes no reference
to the option to give employees 30 days severance pay in lieu of 30 days notice, which is what
occurred. Embassy policies on hiring and recruitment, promotions, and voluntary separation are
confusing to staff, not consistently applied, and are misunderstood by some supervisors.
Embassy policies require clarification. For example, in the case of a two-grade promotion,
qualified applicants from within the mission must first serve 3 months at their current grade level
and 1 year at each grade level below that established for the advertised position. However,
outside candidates only have to serve 1 year at a grade level below the advertised position. The
committee asserts this disadvantages mission employees, but the policy is consistent with U.S.
Civil Service practice. In addition, some LE staff has received Department waivers to this
requirement and others have not.

Recommendation 10: Embassy Santiago should determine whether its locally employed staff
handbook employment policies on a reduction in force and voluntary separation are in agreement
with Chilean local labor law and revise the handbook as appropriate. (Action: Embassy Santiago)

       Informal Recommendation 22: Embassy Santiago, after discussion with the locally
       employed staff committee, should issue an administrative notice defining the locally
       employed staff committee’s roles and responsibilities.

       Informal Recommendation 23: Embassy Santiago should update and reissue its policies
       on hiring, recruitment, and promotions.

       Informal Recommendation 24: Embassy Santiago should conduct periodic information
       sessions on its employment policies.

       Informal Recommendation 25: Embassy Santiago should include a session on
       frequently asked personnel questions in its new employee orientation and post these
       questions on the embassy’s Web site.
                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Equal Employment Opportunity and Federal Women’s Program

        Although the EEO counselor received no formal complaints in the year prior to the
inspection, the inspectors received several complaints about workplace discrimination and
harassment. The EEO program has been dormant for a year and needs to be rejuvenated. The
sole EEO counselor manages a busy work unit and does not have sufficient time to devote to the
EEO program. The embassy held an EEO town hall meeting during the inspection. Attendance
was modest, but the event was well received by embassy staff. Many embassy employees are not
aware of the identity of the EEO counselor. There is need for another EEO counselor to provide
back-up and continuity. During the inspection, the embassy appointed and announced a LE staff
EEO liaison position, but she has not yet been trained. Given the size of the LE staff community,
another LE staff EEO liaison is needed. A Federal Women’s Program coordinator has not been
designated or trained. The SharePoint site does not have a separate section on EEO or Federal
Women’s Program policies, procedures, and information.

       Embassy management reacted positively to the OIG team’s identification of its
noncompliances with 3 FAM 1500. During the inspection, the EEO counselor conducted an EEO
informational town hall session. The town hall session was a start, but additional focus on the
embassy EEO program is needed.

Recommendation 11: Embassy Santiago, in coordination with the Office of Civil Rights, should
schedule training on Equal Employment Opportunity and harassment issues to be conducted by
the Office of Civil Rights at the embassy. (Action: Embassy Santiago, in coordination with the
S/OCR)

Recommendation 12: Embassy Santiago should select and train a second Equal Employment
Opportunity counselor. (Action: Embassy Santiago)

Recommendation 13: Embassy Santiago should recruit, appoint, and train local employee
Equal Employment Opportunity liaisons, using materials on the Office of Civil Rights Web site.
(Action: Embassy Santiago)

Recommendation 14: Embassy Santiago should create an Equal Employment Opportunity and
Federal Women’s Program section on its SharePoint site that includes Department of State
policies and procedures, and issue an administrative notice in English and Spanish to its
employees with the same information. (Action: Embassy Santiago)

       Informal Recommendation 26: Embassy Santiago should regularly publish a schedule
       for Equal Employment Opportunity activities, town hall meetings, diversity training, and
       related activities. The draft should be developed by the Equal Employment Opportunity
       counselors and the human resources officer and be approved by the deputy chief of
       mission.




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Financial Management

        The financial management unit provides first-rate accounting, budgeting, cashiering,
vouchering, and payroll services. The OIG team found no anomalies in cashier operations,
unliquidated obligations, the suspense deposit account, sales proceeds, official residence
expenses, travel vouchers, or outstanding advances. There were problems with delinquent
telephone and cell phone accounts receivables. The OIG team discussed with the financial
management officer ways to improve the financial operation, including modifying standard
operating procedures for telephones and cell phones, outsourcing some of its workload, and local
staff succession planning. The office’s present staff of 1 U.S. direct-hire financial management
officer and 10 LE staff members is sufficient. Unit morale is good.

Vouchering

         The financial management unit has not included in its work force planning a cost-benefit
analysis of outsourcing vendor and travel voucher processing to the Department post support unit
in the Bureau of the Comptroller and Global Financial Services. The unit did not perform a cost-
benefit analysis for a recently hired voucher examiner, or for a financial analyst position where
the incumbent is retiring, or for other LE staff eligible to retire. Outsourcing to the post support
unit is one of the Department’s Top 8 Global Management Priorities. This management priority
goal is cost containment and cost reduction through remote voucher processing. Under this
initiative, embassies are required to consider outsourcing their voucher processing.

        The OIG team’s analysis showed it is far more economical for the post support unit to
process vouchers than for the embassy to hire new staff or replace LE staff. Embassy Santiago’s
unit cost to process a voucher is $31.95 whereas it costs the post support unit only $12 to process
a voucher. The OIG team estimates that the mission could save $50,394 annually if it outsourced
the workload of one voucher examiner to the post support unit. The mission could also avoid
high severance costs of $90,000 to $495,000 that it recently paid out to local employees. The
OIG team also discussed with the financial management officer the advantages of outsourcing
travel vouchers to the post support unit, which the OIG team supported in order to free up
mission staff for other duties. It would cost the embassy about $3,600-$6,000 to outsource the
processing of is 300-500 travel vouchers to the post support unit.

Recommendation 15: Embassy Santiago should conduct a formal cost-benefit analysis of
outsourcing its voucher processing to the Bureau of the Comptroller and Global Financial
Services post support unit, and select the appropriate low-cost option. (Action: Embassy
Santiago)

Landline and Cellular Telephone Usage

        The embassy’s telecommunications policies and procedures do not comply with
Department regulations. There are no restrictions on personal local and long distance calls by
embassy personnel because the embassy seeks reimbursement for these types of calls. Limited
use of government telecommunications for personal reasons is allowed pursuant to 5 FAM 511
                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



and 5 FAM 522. Personal calls are acceptable as long as they result in negligible costs to the
U.S. Government and do not interfere with an employee’s work responsibilities. Personal long
distance calls are prohibited by 5 FAM 523.1, except under the limited “personal emergency”
provision of 5 FAM 523.1 b. Employees must use personal calling cards to make personal long
distance calls. Employees are not authorized to make long distance calls even with the intent of
later reimbursing the U.S. Government.

        After the 2010 Chilean earthquake, the embassy issued cell phones to all eligible family
members using a plan that did not charge for calls made between telephone numbers within the
embassy group. For eligible family members, all calls were considered personal and the embassy
decided to seek reimbursement once the accumulation of personal calls reached $20.00. This
policy and an ineffective billing and reimbursement process led to bills being issued after 18
months of usage and accounts receivable in arrears of $9,053.43. Also, there were cases of abuse
of the rules by employees, resulting in some bills ranging from $100 to $2,400 for personal calls.

        In September 2012, shortly before the OIG inspection, the embassy recalled all cell
phones issued to eligible family members and issued bills of collection. The embassy developed
a software program that allows employees to view their call records electronically, identify
which are personal calls, and electronically submit the bill to the accounts receivable unit for
collection. This system works well but has required significant information technology staff
resources. It also has required some financial management staff time including the cashier’s time
to collect reimbursements. The cost of processing each collection is $31.95. Clearly, the costs
associated with collecting personal telephone charges are significant. The mission only recently
gained the ability to sort telephone bills for land lines by extension and to seek reimbursement
for personal and long distance charges. Prior to this change, charges for personal calls were
uncollected.

Recommendation 16: Embassy Santiago should issue a telephone usage policy that outlines the
permitted exceptions for official cell telephones and landlines. (Action: Embassy Santiago)

International Cooperative Administrative Support Services

        The ICASS council operates effectively. Each agency subscribing to ICASS sends one
representative to council meetings, which are held approximately four times each year, in
compliance with Foreign Affairs Handbook (FAH), 6 FAH-5 H032 requirements. A consensus
vote determines outcomes. Subcommittees work as needed and subscribing agencies express
satisfaction that the meetings are productive.

General Services

        The general services unit operates well, even though the general services officer was
designated as the acting management counselor for several months during a staffing gap. The
unit responds to daily challenges, and recognizes that if not handled promptly and correctly,
challenges can grow into larger problems. The implementation of the Integrated Logistics
Management System has been beneficial to all areas in the general services unit. With the arrival
                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



of a new management counselor, the general services officer can focus on ways to improve
communication among the areas he supervises and with customers.

Property Management

        Property management provides good service. The off- site warehouse is clean, organized,
and well maintained. The FY 2012 property management certification reported acceptable
nonexpendable and expendable inventory shortages well below the 1 percent threshold for the
Department. The property management supervisor conducts periodic spot-checks of the
warehouse but not frequently enough to exercise adequate oversight. The general services officer
and the property management supervisor acknowledged this deficiency and plan to establish
closer supervision.

       Informal Recommendation 27: Embassy Santiago should conduct weekly unannounced
       visits to the off-site warehouse.

Procurement

       The procurement staff is knowledgeable and provides good support. They coordinate well
with the property management and financial management unit. The OIG team informally
suggested several ways to improve procedures.

        Several procurement invoices incorrectly list the general services unit as the designated
billing unit. This incorrect procedure increases the risk of duplicate payments and can cause a
delay in vendor payments. The Department preferred practice is to list the financial management
unit as the designated billing unit. The embassy agreed to ensure that all invoices list the
financial management office as the designated billing unit.

       Informal Recommendation 28: Embassy Santiago should list the financial management
       unit as the designated billing unit on all procurements including contracts, purchase
       orders, credit cards, and blanket purchase agreements.

        Procurement staff cardholders spend a substantial amount of time procuring items with
their purchase cards for other sections and agencies, and in some cases for sections that already
have purchase cards and are reluctant to use them. In addition, procurement staff cardholders are
providing their purchase card account numbers to the public affairs section. The funds are
allotted automatically, and in many cases, without the procurement cardholder’s knowledge.
Department regulations state the cardholder is the only one authorized to use the purchase card
and has sole responsibility for expenditures charged against the card. Otherwise, the cardholder
loses the ability to verify the availability of funds.

       Informal Recommendation 29: Embassy Santiago should require cardholders in other
       sections and agencies to use their purchase cards for their micro-purchase limits of
       $3,000.00 and under.

                                       27
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



         Informal Recommendation 30: Embassy Santiago should encourage all sections and
         agencies to assign cardholders and obtain purchase cards.

         As a cost saving measure, the procurement staff sent a memorandum to embassy sections
listing publications that are also available digitally. Many of the digitalized publications cost less
than half of paper subscriptions. The front office and economic/political sections now subscribe
to 3 daily publications, which are received in hard copy. Subscribing to the digital publications,
however, would save several thousand dollars.

         Informal Recommendation 31: Embassy Santiago should discontinue paper
         subscriptions and subscribe to digital publication services.

        The embassy maintains seven formal contracts. The OIG team’s examination of the
contracts revealed that the mandatory Federal Acquisition Regulation clause 52.222-50
pertaining to trafficking in persons was not included. Several contracts will be renewed or re-
competed soon, at which time the procurement unit will include the appropriate trafficking in
persons clauses and amend its other contracts

Recommendation 17: Embassy Santiago should include Federal Acquisition Regulation clause
52.222-50 pertaining to trafficking in persons in all contracts. (Action: Embassy Santiago)

Travel

        High costs, reduced demand for travel services, customer complaints, and limited office
space indicate the embassy should reassess using Carlson Wagonlit Travel as its on-site travel
provider. This service costs $89,000 annually. The embassy pays the salaries of two travel agents
plus a fee per transaction, provides office space, and three workstations.

        To reduce costs, the embassy could consider moving its travel services off-site or
outsource its travel services. With the recent termination of the rest and recuperation break
allowance and tighter travel budgets, the volume of tickets will decline significantly. The OIG
team believes travel services are not cost effective, and the team does not support an on-site
travel provider office.

Recommendation 18: Embassy Santiago should reassess the current memorandum of
understanding with Carlson Wagonlit Travel services to determine whether it provides cost-
effective services and decide whether to cancel or revise the current agreement. (Action:
Embassy Santiago)

Customs and Shipping

        The customs and shipping unit provides good service. The unit is in regular contact with
the Chilean Government and seeks ways to work with local officials to prevent delays of
incoming and outgoing shipments. The staff is proficient and understands rigorous Chilean
policies and regulations.
                                        28
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        The unit is not always able to provide Chilean authorities with the required
documentation for the preclearance of imported items. To avoid delays, as well as warehouse,
demurrage and other charges, the shipping staff must have packing lists, invoices, hazardous
declarations, and other shipping documents uploaded to the Transportation Lite system used by
Chilean port officials for inspection, processing, and clearance. The embassy obtains this
documentation from the Miami Despatch Agency. Delays in receiving supporting documentation
have cost the embassy storage fees up to $100.00 a day per container. In some cases the embassy
was charged up to $400.00 per day for storage due to a lack of needed documentation.

       Informal Recommendation 32: Embassy Santiago should contact the Miami Despatch
       Agency for assistance in meeting the Chilean Government transportation requirements.

Motor Pool

        The OIG team conducted an onsite inspection of 5 percent of the 30 vehicles in the motor
pool inventory and found no discrepancies. The motor pool maintains vehicle records in a well
organized filing system. Drivers consistently use the Daily Vehicle Use Record (Form OF-108)
to record mileage, destination, vehicle checks, and refueling.

        Several agencies at the embassy operate separate motor pools. The general services
officer is designated as the motor vehicle accountable officer for the embassy but does not
maintain a copy of motor vehicle policies of other agencies as required. According to 14 FAM
431.2-1 b., the motor vehicle accountable officer is responsible for ensuring compliance of
Department regulations and managing official vehicles at posts abroad.

Recommendation 19: Embassy Santiago should obtain a copy of motor vehicle policies of all
agencies under chief of mission authority and require compliance with the Department of State
and Embassy Santiago’s motor vehicle policy. (Action: Embassy Santiago)

Facility Management

        The facility management unit effectively maintains 14 government-owned and 61 short-
term leases. It also inspects living quarters allowance properties to ensure housing meets
Department size and cost requirements. The chancery and other government-owned properties
are in good condition and well maintained. Some facility management workshops, as well as the
mail room, are housed outside the embassy compound and do not comply with Department
requirements as noted in the classified annex to this report. The facility management officer is
exploring other options to address office space issues.

         The general services officer usually manages the housing program, but in Santiago the
facility manager does so. The OIG team received positive comments from the embassy
community on the housing program. Since 2010, the rental cost of housing has increased by 20
percent. The embassy has had difficulty finding housing that is affordable under their maximum
rental bench mark of $4,500 per month and has requested a waiver, which is pending. Given

                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



continued escalating housing costs, OBO approved the purchase of six new condominiums. The
goal of OBO is to purchase 30 housing units.

New Technology Use for Property Inspections

        The Happy Inspector is a tablet computer software application for property inspections.
The facility management unit employs this software application to conduct residential and
maintenance inspections. A checklist template customized to the inspected property is installed
on the tablet. The RSO approved and the information technology section configured the tablet.

Innovative Practice: New Technology Use for Property Inspections

Innovative Practice: New Technology Use for Property Inspections

Issue: In the past, facility management employees expended several hours per day driving back
and forth to employee residences to inspect, evaluate, and schedule repairs.

Response: The unit uses the Happy Inspector, a software application to which it made some
modifications, to report on residential and maintenance inspections, make-ready’s, and departure
assessments. The PDF format report includes the condition of the properties and photos, which
can be immediately sent to the E-Services coordinator to schedule a maintenance crew.

Result: The Happy Inspector saves 3 to 4 work hours per service call and reduces transportation
costs, resulting in an estimated cost savings of $65,000 per year.


Safety, Health, and Environmental Management

        The embassy’s safety program is adequate. The embassy is making progress in taking
corrective actions recommended in the 2010 review by the Department’s Office of Safety, Health
and Environmental Management.

Information Management

         Embassy Santiago operates an effective information management program, and the
unit’s services received excellent customer reviews, both in ICASS and OIG survey
questionnaires. The information management officer’s recent arrival provides much-needed
leadership in the program.

        The section has suffered from staffing gaps dating back to the 2006 OIG inspection.
There has been at least one U.S. direct-hire position vacant at any given time for the past year,
but the section has been performing successfully because of strong team cohesion. All unit
members assist in providing service beyond their everyday duties.


                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        The OIG team identified several areas that require management’s immediate attention,
including position classification, help desk coordination, mail operation, telephone network,
mobile communications, and telephone operator procedures. The OIG team reviewed systems
management, telephone operations, radio programs, and mail operations. Information security
issues are covered in the classified annex of this report.

Information Programs Center

        The information programs center is staffed by two entry-level specialists. Intermittent
staffing gaps in direct-hire positions have required an entry-level specialist to act in a
management capacity. This specialist has maintained operations, but some areas remain
unaddressed. The OIG team concluded that the entry-level specialist position number 55133000
could be reprogrammed as a mid-level supervisory position to formalize the managerial role and
establish a beneficial supervisor-mentee relationship.

Recommendation 20: Embassy Santiago, in coordination with the Bureau of Human Resources,
should reclassify position number 55133000 from FP-04 entry-level specialist to FP-03
information programs officer. (Action: Embassy Santiago, in coordination with DGHR)

Information Systems Center

        The embassy’s help desk managed to maintain operations during recent staffing gaps, but
the information systems center lacks a single focal point where customers can call for help. The
embassy abolished a help desk coordinator position when the incumbent took another position.
Customers submit service requests either through the online E-Services system or by contacting
the information systems center staff directly. There is no established system for handling service
requests, which are coordinated on an ad hoc basis. As a result, the help desk is vulnerable to
service disruptions or duplications. Each help desk staff member has collateral duties, and
handling help desk service requests in an uncoordinated manner leads to work disruptions. A
coordinator position would resolve some of this problem.

Recommendation 21: Embassy Santiago should re-establish a help desk locally employed
coordinator position in the information systems center. (Action: Embassy Santiago)
        In addition to challenges with help desk coordination the information systems center unit
is adjusting to the loss of a key administrator whose position was abolished in the July 2012 RIF.
The administrator’s portfolio was specialized, servicing primarily public diplomacy operations.
The information management officers had still not reassigned the administrator’s duties 5 months
after the RIF. It would be prudent for the information management officer to collaborate with
public diplomacy leadership on how to reallocate the duties.

       Informal Recommendation 33: Embassy Santiago should review and reassign system
       administrative duties supporting public diplomacy operations.




                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Mail Operations

        The OIG team identified problems with mail screening procedures. (b) (5)
                                                       On September 10, 2012, the embassy issued
a security directive on procedures for screening local mail that contravene Department
regulations. (b) (5)



Recommendation 22: Embassy Santiago should establish mail screening procedures that
comply with Department of State regulations. (Action: Embassy Santiago)

         As endemic in other facets of the information management operation, staffing in the
Diplomatic Post Office has been a challenge. The unit is staffed by three eligible family
members, two of whom work part time. Although this staffing provides employment to
dependents of embassy employees, this practice increases staff turnover and diminishes
consistency and continuity of operations. During the inspection, a part-time eligible family
member clerk was also acting as the mailroom supervisor and working a full-time schedule. The
unit is adequately performing its duties, but a full-time LE clerk position would result in
improved service.

       Informal Recommendation 34: Embassy Santiago should establish a full-time locally
       employed staff mail clerk position in the Diplomatic Post Office.

Telephone Network

        Embassy Santiago’s telephone network has been identified as an area for potential cost
savings. The embassy has procured a technology “netbox” that will allow it to add voice-over
Internet protocol capabilities to the telephone system, which should result in cost savings by
transferring phone calls to data circuits. However, the embassy has not implemented the
“netbox” system; it is on-site awaiting additional equipment required for activation.

       Informal Recommendation 35: Embassy Santiago should implement voice-over Internet
       protocol technology within the telephone network.

       Telephone Operators

        Embassy Santiago’s telephone operators do not have consular-endorsed guidance for
servicing consular-related calls. The telephone operators direct callers to the consular section
portion of the embassy Web site and other consular-related guidance available online but have no
written guidance from consular management to assist them.

       Informal Recommendation 36: Embassy Santiago should provide the telephone
       operators with written guidance for responding to consular-related calls.

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



State Messaging and Archive Retrieval Toolset

        The embassy is not making effective use of the State Messaging and Archive Retrieval
Toolset message application. Several offices in the embassy that transmit information that must
be preserved according to 5 FAM 443.2 are not using this system for creating and archiving
record emails. The information management officer is aware of the issue and has agreed to
implement a training program. The OIG team found that economic/political reporting officers at
Embassy Santiago are not retaining record emails. The section did not write a single record email
using the State Messaging and Archive Retrieval Toolset Program in 2012. Unless the embassy
addresses this issue, important data needed for policy analysis and archival research will not be
available in the future.

       Informal Recommendation 37: Embassy Santiago should provide training for mission
       personnel to create and administer record emails via the State Messaging and Archive
       Retrieval Toolset message application.

Recommendation 23: Embassy Santiago should issue a management notice on use of the State
Messaging and Archive Retrieval Toolset message application to archive official email and
should have section heads hold staff accountable for compliance with Department of State
requirements. (Action: Embassy Santiago)

Diplomatic Note Registry

       The embassy uses an electronic system to assign numbers to outgoing diplomatic notes,
which is accessible to the various sections and agencies. After signing out a diplomatic note, the
sending section is supposed to upload a copy of the note into a database. Not all sections and
agencies do so. As a result there is no central database of diplomatic notes sent by the embassy,
which has complicated the embassy’s ability to obtain needed information in conducting
business with Chilean authorities.

       Informal Recommendation 38: Embassy Santiago should require sections and agencies
       to adhere to embassy guidelines for recording outgoing diplomatic notes.




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Quality of Life
        Morale is generally satisfactory. Negative factors include Santiago’s high cost of living,
heavy traffic and pollution, an unreimbursed value-added tax of 19 percent, and the loss of rest
and recuperation travel. To adjust for the higher living costs, U.S. staff receives a 30 percent
cost-of-living adjustment. The cost-of-living survey is up-to-date. There are abundant travel and
sightseeing opportunities and cultural and sporting activities and events. Santiago has good
housing, medical services, private schools, shopping, and restaurants.

Community Liaison Office

       The CLO consists of two co-coordinators, who received good scores on ICASS and OIG
surveys. The co-coordinators participate and sit on the emergency action committee, country
team, housing board, recreation association board, and the post employment committee. One
coordinator has received training. The other officer is to receive training in November 2012.

Health Unit

        The main issue of concern for the health unit is inadequate space. The health unit lacks a
second patient examination room and holding room. The reception area is inadequate and does
not provide for patient privacy. There is no room for a pharmacy. Some medical equipment is
stored in the hallway. The OIG team discussed with the embassy management team the health
unit’s requirement for additional space.

         The regional medical officer, assisted by a part-time local hire nurse, a part-time eligible
family member nurse, and a local hire receptionist provides good service to employees and
families. The unit also provides limited occupational health services to LE staff. The regional
medical officer has responsibility for Embassies Buenos Aires, Montevideo, Asuncion, and La
Paz. He is also using a telemedicine capability to enable distant examinations for cardiac and
lung functions, ear and nose problems, and skin conditions. A La Paz-based regional psychiatrist
visits the embassy 2 to 3 times per year.

Schools
                                                            (b)(5)(b)(6)
        Satisfaction with the quality of education at the                  international schools is generally
high. (b)(5)(b)(6)
                                                                         the school is reaching
maximum capacity and the school’s executive board has decided not to increase enrollment.
Students from embassy families have priority for admission, but the school may not have
adequate space for all embassy applicants in the future.

        The school pays particular attention to security, with three levels of perimeter fencing, a
private guard force that recognizes most cars, students, and drivers on sight. The school
provisions for its staff and student body in the event of an emergency, conducts regular safety

                                        34
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



drills, and has a link to the embassy’s emergency radio network. It also regularly evaluates its
security posture and would like to increase its perimeter video surveillance capability when
resources permit.

American Recreation Association

        The association runs a small commissary, vending machines, and operates a cafeteria via
a concessionaire agreement. The commissary does not sell duty-free goods. All products are
accessible to staff. Staffing includes a full-time manager and part-time clerk. In September 2012,
the board of directors completed an inventory count. The results of the count are being compared
and reconciled to the financial records. To improve management controls, the board of directors
has increased the number and frequency of cash counts and reconciliations. The board also
revised is credit policy. It is working on correcting prior year accounting errors and ways to
increase profits. In 2011, the association realized a profit of $6,887.98. As of September 2012,
the association had incurred a loss of about $5,343. The Office of Commissary and Recreation
Affairs identified several weaknesses that are being tracked, subject to corrective action, and
compliance.




                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Management Controls
       The annual chief of mission management controls statement of assurance, dated July
2012, includes evidence that risk assessment questionnaires were completed, that the housing
program complies with FAM requirements, meets Federal Managers’ Financial Integrity Act
management control reviews, includes a copy of the property management report, a copy of the
vehicles inventory, and a copy of the memorandum certifying the controlled substances
inventory.

         The evaluation of the systems of management controls provided reasonable assurance
that there were no outstanding control weaknesses. The statement of assurance identified and
reported a list of safety, health, and environmental management issues which were discussed
earlier in this report.

Cash Verifications

        In some instances, the embassy experienced gaps in following Department financial
procedures (4 FAH-3 H-397.2-3) for the verification of subcashier advances. The regulations
require an unannounced verification of the subcashier funds at least monthly for an advance
amount equivalent to (b) (5) or more and quarterly for an advance amount less than (b) (5) The
gaps occurred primarily because of the fluctuation in local currency.

       Informal Recommendation 39: Embassy Santiago should take steps to ensure that
       subcashier verifications are performed in accordance with Department of State financial
       procedures.

        The Class B cashier reconciliations are usually performed (b) (5)                rather
than randomly. The Department’s cashier verification guide states cashier verifications must be
random, unannounced, and unanticipated by the cashier.

       Informal Recommendation 40: Embassy Santiago should conduct unannounced monthly
       Class B cash reconciliations randomly in accordance with the Department’s cashier
       verification guide.

Machine Readable Visa Fee Reconciliation

        The accountable consular officer is unable to verify machine readable visa fee collections
in a timely way and compare fees with the number of actual visa applicants interviewed, as
required by 7 FAH-1 H-744.2. The GSS contractor collects all machine readable visa fees in
Chile, either by cash or credit card, and deposits them with the U.S. Disbursing Office, which, in
turn, advises the embassy financial management office of the deposits. As soon as the embassy
receives final confirmation of fee deposits, the embassy cashier issues a general receipt (form
OF-0158) to the accountable consular officer, which enables him to complete the prescribed
reconciliation.

                                       36
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        The GSS contractor often delays sending credit card collections to the U.S. Disbursing
Office for up to 5 days after fee collection, presumably while waiting for the credit card
companies to confirm fund availability. The U.S. Disbursing Office takes an additional 3 days
before advising the embassy that they have received deposits. As a result, the accountable
consular officer is unable to comply with required management controls.

Recommendation 24: Embassy Santiago should review credit card collection procedures with
the Global Support Strategy contractor, determine how the contractor can make more timely
deposits to the U.S. Disbursing Office in accordance with the contract, and report findings to the
Bureau of Consular Affairs. (Action: Embassy Santiago)

Referral Program and Adjudication Reviews

        According to 9 FAM 41.113 PN18, supervisory review of every consular officer’s visa
issuances and refusals is an important management control, and 7 FAH-1 H-648.1-3 clarifies that
the DCM is responsible for reviewing a sampling of the consular section chief’s adjudications.
He is not doing so. His Consular Consolidated Database password expired 5 months before the
inspection and there is no evidence that the DCM reviewed the prescribed percentage of the
consular section chief’s adjudications even before that date.

        In Santiago, however, the consular section chief does not interview visa applicants
regularly, except for a few referrals that are reserved for section chief adjudication, which means
there have not been many cases for the DCM to review. The visa chief has adjudicated most of
the referrals for the past year, and the DCM would not be obligated to review those cases
because he is not the supervisor of either officer.

         The OIG team reviewed the embassy’s referral practices with the consular section chief
and the visa chief and encouraged the section chief to back up the visa chief on referrals in the
latter’s absence rather than delegating that responsibility to the FAST visa line chief. This
practice will ensure consistency in referral adjudications and also require the DCM to review the
section chief’s adjudications more regularly.

Recommendation 25: Embassy Santiago should update the deputy chief of mission’s Consular
Consolidated Database password for consular adjudications, retrain him on adjudication review
procedures, and alert him when the consular section chief has adjudicated referral or other visa
cases that he must review. (Action: Embassy Santiago)




                                       37
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




List of Recommendations
Recommendation 1: Embassy Santiago should establish a semiannual review process to assess
and report to the Ambassador and the Bureau of Western Hemisphere Affairs progress toward
meeting objectives in the Integrated Country Strategy, including appropriate adjustments in
travel and reporting plans. (Action: Embassy Santiago)

Recommendation 2: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Santiago and the Bureau of Western Hemisphere Affairs, should conduct a survey of
all chancery office space and develop a plan for unused and underused space for new purposes
and to accommodate future growth. (Action: OBO, in coordination with Embassy Santiago and
WHA)

Recommendation 3: Embassy Santiago should develop a structured professional development
and mentoring program for first- and second-tour officers. (Action: Embassy Santiago)

Recommendation 4: Embassy Santiago should designate the deputy chief of mission as the
assigned reviewing officer for first- and second-tour generalists. (Action: Embassy Santiago)

Recommendation 5: The Bureau of Western Hemisphere Affairs, in coordination with
Embassy Santiago, should establish a new locally employed staff energy, environment, science,
technology and health assistant position in the economic/political section. (Action: WHA, in
coordination with Embassy Santiago)

Recommendation 6: Embassy Santiago should prepare a public diplomacy strategic plan that
is tied to the Integrated Country Strategy and addresses target audience, budget, time frame, and
staff resources for each program. (Action: Embassy Santiago)

Recommendation 7: Embassy Santiago should revise the outdated position descriptions of
locally employed staff members, and clarify lines of authority and work roles, particularly of
those with greater budgetary and programmatic responsibility following the reduction in force.
(Action: Embassy Santiago)

Recommendation 8: Embassy Santiago, in coordination with the Bureau of Western
Hemisphere Affairs, should contract locally with a polling firm to determine where Chileans get
their news and to track attitudes toward the United States based on demographic data such as
age, income, and education, and incorporate this data into the embassy’s public affairs strategy.
(Action: Embassy Santiago, in coordination with WHA)

Recommendation 9: Embassy Santiago should implement a procedure for consular
management to monitor Global Support Strategy service levels in accordance with Bureau of
Consular Affairs guidance and play an active role in coordinating with the local contractor.
(Action: Embassy Santiago)



                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 10: Embassy Santiago should determine whether its locally employed staff
handbook employment policies on a reduction in force and voluntary separation are in agreement
with Chilean local labor law and revise the handbook as appropriate. (Action: Embassy Santiago)

Recommendation 11: Embassy Santiago, in coordination with the Office of Civil Rights,
should schedule training on Equal Employment Opportunity and harassment issues to be
conducted by the Office of Civil Rights at the embassy. (Action: Embassy Santiago, in
coordination with the S/OCR)

Recommendation 12: Embassy Santiago should select and train a second Equal Employment
Opportunity counselor. (Action: Embassy Santiago)

Recommendation 13: Embassy Santiago should recruit, appoint, and train local employee
Equal Employment Opportunity liaisons, using materials on the Office of Civil Rights Web site.
(Action: Embassy Santiago)

Recommendation 14: Embassy Santiago should create an Equal Employment Opportunity and
Federal Women’s Program section on its SharePoint site that includes Department of State
policies and procedures, and issue an administrative notice in English and Spanish to its
employees with the same information. (Action: Embassy Santiago)

Recommendation 15: Embassy Santiago should conduct a formal cost-benefit analysis of
outsourcing its voucher processing to the Bureau of the Comptroller and Global Financial
Services post support unit, and select the appropriate low-cost option. (Action: Embassy
Santiago)

Recommendation 16: Embassy Santiago should issue a telephone usage policy that outlines
the permitted exceptions for official cell telephones and landlines. (Action: Embassy Santiago)

Recommendation 17: Embassy Santiago should include Federal Acquisition Regulation
clause 52.222-50 pertaining to trafficking in persons in all contracts. (Action: Embassy Santiago)

Recommendation 18: Embassy Santiago should reassess the current memorandum of
understanding with Carlson Wagonlit Travel services to determine whether it provides cost-
effective services and decide whether to cancel or revise the current agreement. (Action:
Embassy Santiago)

Recommendation 19: Embassy Santiago should obtain a copy of motor vehicle policies of all
agencies under chief of mission authority and require compliance with the Department of State
and Embassy Santiago’s motor vehicle policy. (Action: Embassy Santiago)

Recommendation 20: Embassy Santiago, in coordination with the Bureau of Human
Resources, should reclassify position number 55133000 from FP-04 entry-level specialist to FP-
03 information programs officer. (Action: Embassy Santiago, in coordination with DGHR)



                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 21: Embassy Santiago should re-establish a help desk locally employed
coordinator position in the information systems center. (Action: Embassy Santiago)

Recommendation 22: Embassy Santiago should establish mail screening procedures that
comply with Department of State regulations. (Action: Embassy Santiago)

Recommendation 23: Embassy Santiago should issue a management notice on use of the State
Messaging and Archive Retrieval Toolset message application to archive official email and
should have section heads hold staff accountable for compliance with Department of State
requirements. (Action: Embassy Santiago)

Recommendation 24: Embassy Santiago should review credit card collection procedures with
the Global Support Strategy contractor, determine how the contractor can make more timely
deposits to the U.S. Disbursing Office in accordance with the contract, and report findings to the
Bureau of Consular Affairs. (Action: Embassy Santiago)

Recommendation 25: Embassy Santiago should update the deputy chief of mission’s Consular
Consolidated Database password for consular adjudications, retrain him on adjudication review
procedures, and alert him when the consular section chief has adjudicated referral or other visa
cases that he must review. (Action: Embassy Santiago)




                                       40
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Santiago should initiate periodic meetings of the front
office staff, including the protocol unit, to review scheduling, taskings, and other operational
issues.

Informal Recommendation 2: Embassy Santiago should establish a working group of select
section and agency heads and front office staff to develop a new tasking and paper flow system
for the Ambassador’s approval.

Informal Recommendation 3: Embassy Santiago should tie the work requirements of all
Department of State U.S. direct hires to mission objectives.

Informal Recommendation 4: Embassy Santiago should apportion travel and representational
funds based on Ambassador-approved section travel and representational plans tied to the
embassy’s strategic priorities. Section heads should be responsible for managing the section’s
funding allocation accordingly.

Informal Recommendation 5: Embassy Santiago should consider proposing the relocation of
the several technical Department of Defense offices to the United States to free up needed office
space.

Informal Recommendation 6: Embassy Santiago should implement a plan for the Ambassador
to visit or schedule periodic meetings with section heads and their staff in their offices to
enhance his understanding of their work and their awareness of his priorities and strategic
direction.

Informal Recommendation 7: Embassy Santiago should arrange for the Ambassador to meet
periodically with the community liaison office co-coordinators.

Informal Recommendation 8: Embassy Santiago should plan for the Ambassador to meet
occasionally with first- and second-tour officers as a group.

Informal Recommendation 9: Embassy Santiago should give equitable attention in the first-
and second-tour program to the professional development and mentoring needs of first- and
second-tour specialist officers.

Informal Recommendation 10: Embassy Santiago should develop an action plan to rebuild the
public affairs team that empowers the locally employed staff, encourages initiative, and
strengthens communications.
                                               41
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 11: Embassy Santiago should provide training as needed for
locally employed staff with new responsibilities, especially for the grants officer representatives,
the public affairs section budget manager, and for the staff member in charge of the International
Visitor Leadership Program.

Informal Recommendation 12: Embassy Santiago should assign back-up responsibilities for
each locally employed staff member to cover work in his or her absence.

Informal Recommendation 13: Embassy Santiago should annually issue media guidelines to
all employees and provide a detailed briefing to section and agency heads.

Informal Recommendation 14: Embassy Santiago should include a permanent hot link
featuring upcoming embassy-sponsored public events on its Web site.

Informal Recommendation 15: Embassy Santiago should minimize postings on past internal
embassy events and feature external programs of interest to the Chilean target audience.

Informal Recommendation 16: Embassy Santiago should shift the Information Resource
Center director to the direct supervision of the public affairs officer.

Informal Recommendation 17: Embassy Santiago should publicize the capabilities of the
Information Resource Center and encourage embassy offices and agencies to use it to support
their work.

Informal Recommendation 18: Embassy Santiago should prepare a front channel report for the
Bureau of Consular Affairs on the status of Global Support Strategy implementation in Chile
after 1 year.

Informal Recommendation 19: Embassy Santiago should reemphasize the requirements of the
William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 with all visa
adjudicators and review a sample of cases for compliance.

Informal Recommendation 20: Embassy Santiago should conduct a broad validation study of
its B visa applicants in accordance with Bureau of Consular Affairs guidelines and prepare an
analysis of the results as part of its new officer training, fraud prevention effort, and visa waiver
evaluation process.

Informal Recommendation 21: Embassy Santiago should reduce the amount of time that
immigrant visa unit staff members spend providing information and assistance that is not related
to actual visas in process.

Informal Recommendation 22: Embassy Santiago, after discussion with the locally employed
staff committee, should issue an administrative notice defining the locally employed staff
committee’s roles and responsibilities.

Informal Recommendation 23: Embassy Santiago should update and reissue its policies on
hiring, recruitment, and promotions.
                                        42
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 24: Embassy Santiago should conduct periodic information
sessions on its employment policies.

Informal Recommendation 25: Embassy Santiago should include a session on frequently
asked personnel questions in its new employee orientation and post these questions on the
embassy’s Web site.

Informal Recommendation 26: Embassy Santiago should regularly publish a schedule for
Equal Employment Opportunity activities, town hall meetings, diversity training, and related
activities. The draft should be developed by the Equal Employment Opportunity counselors and
the human resources officer and be approved by the deputy chief of mission.

Informal Recommendation 27: Embassy Santiago should conduct weekly unannounced visits
to the off-site warehouse.

Informal Recommendation 28: Embassy Santiago should list the financial management unit as
the designated billing unit on all procurements including contracts, purchase orders, credit cards,
and blanket purchase agreements.

Informal Recommendation 29: Embassy Santiago should require cardholders in other sections
and agencies to use their purchase cards for their micro-purchase limits of $3,000.00 and under.

Informal Recommendation 30: Embassy Santiago should encourage all sections and agencies
to assign cardholders and obtain purchase cards.

Informal Recommendation 31: Embassy Santiago should discontinue paper subscriptions and
subscribe to digital publication services.

Informal Recommendation 32: Embassy Santiago should contact the Miami Despatch Agency
for assistance in meeting the Chilean Government transportation requirements.

Informal Recommendation 33: Embassy Santiago should review and reassign system
administrative duties supporting public diplomacy operations.

Informal Recommendation 34: Embassy Santiago should establish a full-time locally
employed staff mail clerk position in the Diplomatic Post Office.

Informal Recommendation 35: Embassy Santiago should implement voice-over Internet
protocol technology within the telephone network.

Informal Recommendation 36: Embassy Santiago should provide the telephone operators with
written guidance for responding to consular-related calls.

Informal Recommendation 37: Embassy Santiago should provide training for mission
personnel to create and administer record emails via the State Messaging and Archive Retrieval
Toolset message application.

                                       43
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 38: Embassy Santiago should require sections and agencies to
adhere to embassy guidelines for recording outgoing diplomatic notes.

Informal Recommendation 39: Embassy Santiago should take steps to ensure that subcashier
verifications are performed in accordance with Department of State financial procedures.

Informal Recommendation 40: Embassy Santiago should conduct unannounced monthly Class
B cash reconciliations randomly in accordance with the Department’s cashier verification guide.




                                      44
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




Principal Officials
                                                            Name     Arrival Date

Ambassador                                            Alex Wolff           09/10
Deputy Chief of Mission                           Buddy Williams           06/10
Chiefs of Sections:
  Management                                     Jennifer Johnson          10/12
  Consular                                            Mark Leoni           09/10
  Economic/Political                               Brian Doherty           07/12
  Public Affairs                                    Larry Corwin           09/12
  Regional Security                                                        03/10
                                                   Liseli Pennings
Other Agencies:
  Foreign Agricultural Service                    Rachel Bickford          07/10
  Department of Defense                    Capt. Ronald Townsend           05/10
  Foreign Commercial Service                Ellen Lenny-Pessagno           07/12
  DEA                                               Jorge Marrero          08/12
  Legatt                                                Eric Metz          11/10
  Animal and Plant Health                              Judith Hall         01/12
  Inspection Service
  Food and Drug                                  Edmundo Garcia            07/11
  Administration




                                      45
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




Abbreviations
CLO              Community liaison officer

DCM              Deputy chief of mission

Department       Department of State

EEO              Equal Employment Opportunity

EESTH            Energy, environment, science, technology, and health

FAST             First- and second-tour

GSS              Global Support Strategy

ICASS            International Cooperative Administrative Support Services

INL              Bureau of International Narcotics and Law Enforcement Affairs

LE               Locally employed

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

RIF              Reduction in force

RSO              Regional security officer

WHA              Bureau of Western Hemisphere Affairs




                            46
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
